.*'1

4

PROOF OF SERVICE OF DOCUMENT
Hon. Robert Kwan, Bankruptcy Judge
United States Bankruptcy Court
255 E. Temple St., Suite 1682
Los Angeles, CA 90012
Attorney for Alfred Siegel, Chapter 7 Trustee
ANTHONY A. FRIEDMAN, ESQ.
LEVEN, NEALE, BENDER, YOO & BRILL, L.L.P.
10250 Constellation Boulevard, Suite 1700
Los Angeles, CA 90067
United States Trustee (LA)
915 Wilshire Blvd, Suite 1850
Los Angeles, CA 90017
Attorney for the United States Trustee
Ron Maroko
915 Wilshire Blvd., Suite 1850
Los Angeles, CA 90017

Supreme Court of The United States
1 First Street NE
Washington, DC 20543
Letter of Explanation

To Whom it may concern,

This letter will serve to explain why Petitioner is providing a late submission of a writ of
Certiorari. Petitioner, Allen B. Shay request that the Court accept the late filing of the enclosed
writ of Certiorari.
Petitioner Allen B. Shay, compiled with the directions provided to him as a pro se litigant
from the United States Supreme Court by submitting 40 copies of a petition with a timely filed
postmarked date on November 26,2019. Petitioner did not receive and was not aware of the letter
issued by the court instructing Petitioner to make the corrections needed to resubmit the writ of
Certiorari to the Supreme Court of The United States.
After a reasonable time had passed without hearing from the court, Petitioner made several
calls during Covid-19, he was unable to reach anyone, however, Petitioner left messages on various
voice mails. Petitioner did receive a call from the Court clerk and discovered what happened after
the telephone conversation and was instructed to resubmit the writ of Certiorari.
Petitioner made the corrections and resubmitted the writ of Certiorari along with a check
in the amount of $300 for the required filing fee.

Thank you.

Sincerely,

Allen B. Shay, Petitioner
175 South Lake Avenue No. 303
Pasadena, CA 91101

receded
JUN 11 2021

